Vj L L %//' V.!
SupraiiV CiorriruZ

[

riLED

No.

*s ? 3 BS

0) C':„
______

r.J

\J-

OFFICE OF THE C!.ERK

In The Supreme Court of The United States
OLEN WARE, II,
Petitioner,
v.

STATE OF TEXAS,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

OLEN WARE, II
TDCJ#0186784
Wynne Unit, TDCJ-CID
810 FM 2821
Huntsville, Texas 77349
Petitioner, Pro se

(

NON-CAPITAL CASE
QUESTIONS PRESENTED
After initially filing his pro se Petition for Writ of Habeas Corpus by a
Person in State Custody under 28 U.S.C. § 2254 on September 21, 2018 his case
was assigned to the Honorable Keith P. Ellison, Judge of the United States District
Court for the Southern District of Texas, Houston Division.1 Petitioner, a layman of
the law, presented a timely motion to amend his federal writ petition pursuant to
Rule 15, Fed. R. Civ. Proc. On June 19, 2019, the district court below then granted
summary judgment to the Respondent the next day on June 20, 2019, without ever
stating the court was denying his motion to amend or the fact it was even filed and
the reason his motion to amend was ignored in the court’s memorandum opinion
denying his federal petition for writ of habeas corpus.2 Petitioner avers and asks
this Court to determine if the federal district court below erred by failing to
consider or rule on his Motion to Leave to Amend his Federal Petition for Writ of
Habeas Corpus pursuant to Rule 15 (a)(2) of the federal rules of civil procedure The
Court of Appeals for the Fifth Circuit then refused a Certificate of Appealability,
foreclosing appellate review of both the merits of Petitioner’s claims and the
district court’s denial of

his Federal petition seeking habeas corpus relief.

1 Olen Ware, II v. Lorie Davis, Director, TDCJ-CID, Civil Case No H-13-3398.
2 Olen Ware, II v. Lorie Davis, Director, TDCJ-CID, Civil Case No H-13-3398.
ll

The following questions are presented.
1. Did the Fifth Circuit err in finding that jurists of reason could not have
found it debatable that the district court erred by dismissing Petitioner’s
Petition
for A Writ Of Habeas Corpus
By A Person
In State Custody Pursuant to 28 U.S.C. §§ 2241, 2254, with prejudice
without it considering Petitioner’s timely Motion to Amend His Petition
pursuant to Rule 15, F.R.C.P ?
2. Did the Fifth Circuit err by not finding jurists of reason could not have
found it debatable that the district court erred by upholding the Texas
Court of Criminal Appeals decision that trial counsel was not ineffective?
3. Did the Fifth Circuit err by finding jurists of reason could not find it
debatable that the district court erred by upholding the state
intermediate court of appeals decision to affirm Petitioner’s judgment
and sentence with a finding that appellate counsel was not ineffective?
4. Did the Fifth Circuit err by finding jurists of reason could have not found
it debatable that the district court erred by holding the Texas Court of
Criminal Appeals decision that the trial court did not abuse its discretion
by denying Petitioner’s motion to suppress, denying his motion for a
mistrial, overruling Petitioner’s objections thereto, and allowing the
admission of unauthenticated crime scene photos.

in

TABLE OF CONTENTS

QUESTIONS PRESENTED

111

TABLE OF AUTHORITIES

Vl-Vll

I.

PETITION FOR WRIT OF CERTIORARI

1-27

II.

OPINIONS BELOW

APPENDICES 1 & 2

III. JURISDICTION

1

IV. STATUTORY PROVISIONS INVOLVED
V.

STATEMENT OF THE CASE

VI. REASONS FOR GRANTING THE WRIT

6-27
1-3
14

A. Did the Fifth Circuit err in finding that jurists of reason could not
have found it debatable that the district court erred by dismissing
Petitioner’s Petition for A Writ Of Habeas Corpus By A Person
In State Custody Pursuant to 28 U.S.C. §§ 2241, 2254, with prejudice
without it considering Petitioner’s timely Motion to Amend His
Petition pursuant to Rule 15, F.R.C.P ?
1-5
B. Did the Fifth Circuit err by not finding jurists of reason could not
have found it debatable that the district court erred by upholding the
Texas Court of Criminal Appeals decision that trial counsel was not
ineffective?
6-12
C. Did the Fifth Circuit err by finding jurists of reason could not find it
debatable that the district court erred by upholding the state
intermediate court of appeals decision to affirm Petitioner’s judgment
and sentence with a finding that appellate counsel was not
ineffective?
13-16
D. Did the Fifth Circuit err by finding jurists of reason could have not
found it debatable that the district court erred by holding the Texas
Court of Criminal Appeals decision that the trial court did not abuse its
discretion by denying Petitioner’s motion to suppress, denying his
motion for a mistrial, overruling Petitioner’s objections thereto, and

IV

allowing the admission of unauthenticated crime scene photos
VII. CONCLUSION AND PRAYER FOR RELIEF
VIII.

PROOF OF SERVICE

17-27
28
29

INDEX OF APPENDICES:
APPENDIX 1

United States Court of Appeals unpublished
order
denying Certificate of Appealability, Olen
Ware, II v. Lorie Davis, Director, TDCJ-CID, No.1920443.

APPENDIX 2 Memorandum Opinion of the United State District
Court denying Petitioner’s Petition for Writ of Habeas
Corpus by Person in State Custody in Olen Ware, II v.
Lorie Davis, Director, TDCJ-CID, No. 4:18-CV-3398.
APPENDIX 3 Petitioner Ware’s Motion for Leave to Amend his Federal
Petition for a writ of habeas corpus by a person in State
custody.

v

TABLE OF AUTHORITIES
Federal Cases:

Bakery. Metcalfe, 633 F.2d 1198, 1201 (5th Cir.).............

18

Barnett v. Hargett, 174F.3d 1128, 1133 (10th Cir. 1999)..

9, 22

Brown v. Artuz, 283 F.3d 492, 501 (2dCir.2002)................

16

Brown v. Roe, 279 F.3d 742, 746 (9th Cir.2002)................

21

Chambers v. Johnson, 218 F.3d 360, 363 (5th Cir. 2000)..

9

Drinkard v. Johnson, 97 F.3d 751, 769 (5th Cir. 1996)....

8

Estelle v. Gamble, 9 n. 373 U.S. 83, 83 S.Ct. 1194............

.21

Faretta v. California, 422 U.S. 806 (1975).........................

17

Francis S., 221 F.3d at 108.....................................................

16

Gardner v. Johnson, 247 F.3d551,560 (5th Cir. 2001)....

8,9

Gideon v. Wainwright, 372 U.S. 336 (1963).......................

16

Gilchrist v. O’Keefe, 260 F.3d 87 (2d Cir. 2001),..............

16

Haines v. Kerner,404 U.S. 519, 520- 21 (1972).................

21

Hally. Bellmon, 935 F.2d 1106, 1110 (10th Cir.1991)......

22

Harrington v. Richter, 562 U.S. 86 (2011),........................

11

Jenkins v. Artuz, Nos. 01- 2355, - 2328, F.3d, 2002WL....

15, 16

Kennaugh v. Miller, No. 01-2281, F.3d , slip op. at 1608..

15

Kennaugh, slip op. at 1607.....................................................

16

Kyles v. Whitley, 514 U.S. 419, 434 (1995)........................

14,19

Lainfiesta v. Artuz,253 F.3d 151, 154 (2d Cir. 2001).........

17

Lockhart v. Fretwell,506 U.S. 364-113 S.Ct. 838, 842-43,

19

Lockyer v. Andrade, 538 U.S. 63, 76 (2003).......................
Lindstadty. Keane,239 F.3d 191, 198 (2d Cir. 2001)........
vi

,-7
15

Martinez v. Ryan, 132 S.Ct. 1309, 1317 (2012)...................................

20

Miller-El v. Cockrell, 537 U.S. 322, 340 (2003)..................................

10

Panetti v. Quarterman, 551 U.S". 930 (2007).....................................

8

Pinholster, 131 S. Ct. at 1401................................................................

18

Rompilla v. Beard, 545 U.S. 374, 380 (2005).....................................

7

Schriro v. Landrigan, 550 U.S.465, 474-75 (2007).............................

18

Sellan v. Kuhlman, 261 F.3d 303, 309 (2d Cir. 2001).........................

15

Strickland v. Washington, 466 U.S. 668 (1994)...................................

14,18

Thompkins, 560 U.S. 370 (2010).........................................................

25

United States v. Bagley, 473 U.S. 667, 682 (1985).............................

21

United States v. Blount, 98 F.3d 1489, 1495........................................

10

United States v. Capote- Capote, 946 F.2d 1100, 1102 (5th Cir. 1991)

10

United States v. Mask, 330 F.3d 330, 337 (5th Cir. 2003)..................

10

Valdez v. Ward, 219 F.3d 1222, 1230 (10th Cir. 2000).......................

8

Wiggins v. Smith, 539 U.S. 510, 520 (2003)........................................

7,9

Williams v. Taylor, 529 U.S. 362, 409 (2000)............. .......................

8,9

Federal Statutes
28 U.S.C. §2255,...................

1

28U.S.C.§ 2253,................

2

Rule 15(a)(2), Fed. R. Civ. P.,

11

28 U.S.C. §2254(d),...............

6

28 U.S.C. §2254(d)(l),...........

14

§2254(d)(l).............................

19

28 U.S.C. §2254(e)(l)............

9

Vll

Rules
passim

Fed. R. Civ. P. 60(b)
Fifth Cir. R. 47.5.1..
Supreme Court Rule 13.1

23

1

Other
Sixth Amendment

13

Tex. Code Crim. Proc. Art. 11.07, § 4..............

12

Texas Code of Criminal Procedure, Art. 38.01,

24

Vlll

I. PETITION FOR WRIT OF CERTIORARI
Olen Ware, II (hereinafter “Petitioner”) petitions the Court for a writ of
certiorari to review the judgment of the United States Court of Appeals for the
Fifth Circuit.3
II. OPINIONS BELOW
The Fifth Circuit’s unpublished opinion denying a Certificate of
Appealability and attached here as Appendix 1. The district court’s order granting
summary judgment to Respondent denying Petitioner’s petition for a writ of habeas
corpus by a person in State custody 28 U.S.C. § 2254. Fifth Circuit denial of
Petitioner’s request for a Certificate of Appealability and motions for rehearing and
rehearing en banc is attached as Appendix 2.
III. JURISDICTION
The Fifth Circuit entered final judgment on June 20, 2019. See Appendix 1.
This petition is timely filed pursuant to Supreme Court Rule 13.1. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
IV.
STATUTORY PROVISIONS INVOLVED
This case involves the relationship between 28 U.S.C. § 2255, the primary
avenue for collateral review of federal criminal judgments, which authorizes a
district court to grant relief from a final judgment in a civil case on equitable

3 See Appendix A.

1

grounds. It also implicates the Court of Appeals’ application of 28 U.S.C.§ 2253,
which bars plenary appellate review in a habeas corpus proceeding unless a court
issues a COA.
y.

STATEMENT OF THE CASE
Petitioner avers that the Respondent, Lorie Davis, Director of the Texas
Department of Criminal Justice-Correctional Institutions Division, (“TDCJ-CID”)
is illegally restraining him of his liberty based upon an erroneous conviction out of
the 208th Judicial District Court of Harris County, Texas, styled: State of Texas v.
Olen Ware, II, numbered 1328054, after a jury found him guilty as charged for the
felony offense of capital murder. CR-119 & 130-131.3 The * same jury then
assessed punishment at sixty-years confinement in the TDCJ-CID on June 21,
2013. CR-61 62 & 129.129.
The Court of Appeals for the First District of Texas affirmed the trial court’s
judgment. Ware v. State, No. 01-13-00545-CR, 2014 WL 4952432 (Tex. App.
Houston [1st Dist.] Oct. 2, 2014, pet. ref d) (mem. Op. not designated for
publication). The Texas Court of Criminal Appeals refused discretionary after
Petitioner had filed a writ of habeas corpus in State Court complaining appellate
counsel had failed to follow the statutory requirement in notifying him of his right
to file a Petition for Discretionary Review (“PDR”), which the TCCA refused on
January 14, 2015; see Ware v. State, No. PD-1470-14. On April 7, 2016, Ware filed
2

a state habeas application challenging his conviction. 4 On September 19, 2018, the
TSCA denied the application without written order.5 Petitioner filed his petition for
writ of habeas corpus by a person in State custody on September 21, 2019.
Respondent filed his Motion for Summary judgment on April 19, 2019. The district
court granted Respondent’s motion for summary judgment on June 20, 2019.
Petitioner the filed a request for Certificate of Appealability to the Fifth Circuit Court
having jurisdiction, See Ware v. Lorie Davis, No. 19-20443, who, after considering
same on September 21m 2020 denied Petitioner’s request for COA. Petitioner filed a
motion for rehearing that was late, but after requesting out of time rehearing the
Court granted the motion on December 08, 2020. On that same day, Petitioner filed a
motion for rehearing en banc, which the Court denied same on December 21, 2020,
making his Petition for Writ of Certiorari due to be filed by March 22, 2021. This
proceeding followed.

3

V
REASONS FOR GRANTING THE WRIT
A. Ground One: (Restated):
Jurists of reason could have found it debatable that the District Court erred by
dismissing petitioner’s petition for a writ of habeas corpus by a person in state
custody Pursuant to 28 U.S.C. §§ 2241, 2254, with prejudice without it having
considered Petitioner’s timely Motion to Amend His Petition pursuant to Rule
15(a)(2), Fed. R. Civ. P. and fact that the district court entered an order ruling
Petitioner’s Motion in Opposition for Summary Judgment was dismissed as being
“moot” even though said motion was not due until June 03, 2019, an impossible date
created by the district judge in his memorandum and order that was not filed until
June 04M, 2019. (emphasis added). Moreover, a copy of same was not received by
Petitioner, until on or about June 09, 2019. (emphasis added). The Petition for a Writ
of Habeas Corpus by a Person in State Custody filed by Petitioner pursuant to 28
U.S.C. §§’2241, 2254, was dismissed with prejudice without the district court below
having had time to have considered it and the Motion to Amend His Petition filed
pursuant to Rule 15(a)(2), Fed. R. Civ. P. that were filed on the same day as the order
of the district court dated June 20, 2019. Additionally, the Respondent’s Motion for
Summary Judgment was granted on June 20, 2019 (Docket Entry#20), prejudicing
Petitioner and denying him both due process and a fair trial guaranteed him under the
4

United States Constitution in the proceedings below.
Petitioner’s sub-grounds of ineffective assistance of trial counsel were
corrected in his Third Motion to Amend his federal writ petition. As a layman of the
law, proceeding pro se, Petitioner is aware this fact does not excuse a procedural
default, which normally is only set aside under rare and unusual circumstances.
Petitioner avers any perceived procedural default was due to circumstances beyond
his control from being not being able to write or print clearly and/or comprehend
complex things such as legal research and the preparation of legal pleadings. But has
diligently done his best without any legal assistance. This is not an excuse offered by
Petitioner to excuse any procedural default, but is a fact supported by the record
before this Honorable Court. Petitioner does not own or have access to a typewriter
or copy machine as Texas state' prisoners may purchase a typewriter if they have the
funds to do so but must use carbon paper to make copies or have an intermediary
who is willing to lend assistance to Petitioner in this regard. Moreover, the record
demonstrates that the district judge denied his petition seeking habeas corpus relief
based

upon

the

impediments

of

not

filing

his

response

by

June

3, 2019, and Petitioner is third attempt to amend his federal petition to include the
sub-grounds in ground one related to the ineffective assistance of trial counsel, were
determined to be a moot issue. Petitioner respectfully contends, therefore, that he
should have been allowed to present the sub-grounds contained in ground one of his
third amended federal petition correcting a transposition error by an intermediary [his
5

father] assisting him with typing up his pleadings filed below due to him being
functionally illiterate with hard to read handwriting [print] and therefore sets-out
infra all the sub-grounds in question alleging ineffective assistance of trial counsel
for this Court’s consideration. Petitioner’s rebuttal was not properly considered by
the district courts by its failure to consider and grant leave for good cause and in the
interest of justice for him to include the ineffective assistance of counsel sub-grounds
Prejudicing Petitioner and denying him due course of law and due process. Petitioner
avers he filed his motion for extension of time on May 13, 2019, and after not
hearing anything from the court he asked his father to call the clerk to see if they had
even received the motion for extension of time and when he did so a deputy clerk on
Friday, May 31A, 2019 who confirmed the request for an extension of time had been
received and filed on May 13, 2019, but no decision had been made by the judge and
that we would just have to be patient. Well, that same day miraculously, the
Honorable Keith P. Ellison signed his order granting the requested motion for
extension of time filed by Petitioner (the same day my father called) until Monday,
June 3, 2019. Moreover, since Petitioner did not receive any notice of the order
granting the motion for extension of time until June 7, 2019, as “entered” by the
clerk on Monday, June 04, 2019, creating an impossible date for Petitioner to comply
with the due date that had passed four days prior it was an impossible date for the
Petitioner nor anyone else for that matter, would have been able to respond by the
due date (June 4, 2019) set by the district court for Petitioner to prepare and file, his
6

response to Respondent’s motion for summary judgment, prejudicing the Petitioner
and

denying

him

due

process

and

creating

a

procedural

default.

Standard of Review- AEDPA
Under 28 U.S.C. §2254(d), Respondent predictably argues herein that
Petitioner’s constitutional ineffective assistance of counsel claims are not subject to
federal habeas review. (Respondent’s Motion for Summary Judgment at 13 20).
While Petitioner acknowledges that AEDPA’s standard of review of state court
convictions in federal habeas actions “is difficult to meet and was meant to be,
Harrington v. Richter, 562 U.S. 86 (2011), in the final analysis, what is required is
for a petitioner to demonstrate either that the adjudication of the claim “resulted in a
decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or
resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding.” 28 U.S.C. §2254(d)(l)
and with respect to the “unreasonable application” prong of §2254(d)(l), the Supreme
Court has held that a federal habeas court is permitted to “grant the writ if the state
court identifies the correct governing legal principle from this Court’s decision but
unreasonably applies that principle to the facts’ of petitioner’s case.” Wiggins v.
Smith, 539 U.S. 510, 520 (2003) (emphasis added); see also Rompilla v. Beard, 545
U.S.

374,

380

(2005)

(finding

that

although

the

state

court identified the correct governing legal principle {Strickland v. Washington) its
7

application of the same was objectively unreasonable). This rule applies equally
“when a state court has misapplied a ‘governing legal principle’ to ‘a set of facts
different from those of the case in which the principle was announced.”’ Id. at 520,
citing Lockyer v. Andrade, 538 U.S. 63, 76 (2003) and Williams v. Taylor, 529 U.S.
362, 409 (2000); see also Panetti v. Quarterman, 551 U.S". 930 (2007) (“That the
standard is stated in general terms does not mean the application was reasonable.7
The state court’s decision in applying (or misapplying) Supreme Court precedent in
any given case of course, must not only be “incorrect or erroneous,” but “objectively
unreasonable” as well. Williams v. Taylor,529 U.S. at 409. The previously expressed
view by the Fifth Circuit that the term “reasonable” was subjective and embraced
“all reasonable jurists,” See Drinkard v. Johnson, 97 F.3d 751, 769 (5th Cir. 1996)
(emphasis added) was specifically rejected by the Supreme Court in Williams Taylor,
529 U.S. at 409-10 (AEDPA “directs federal courts to attend to every state court
judgment with utmost care, but it does not require them law.”) Moreover, “the
fact that one court or even a few courts have applied the precedent in the same
manner to close facts does not make the state court decision ‘reasonable.’” Valdez v.
Ward, 219 F.3d 1222, 1230 (10th Cir. 2000). As Judge Wiener reasoned for the
Court in Gardner v. Johnson, 247 F.3d 551, 560 (5th Cir. 2001), “Although Williams
teaches that state court decisions should not be reversed merely because they are
incorrect i.e., just because we would equally clear that neither should such decisions
be upheld when we conclude that the state court has not just misapplied the law to
8

the facts but has done so in an objectively unreasonable manner. Stated another way,
even though the AEDPA requires the federal courts to show more deference to state
court decisions that they would in a de novo review, this cannot be interpreted to
mean that an ‘objectively unreasonable ’application of federal law should be allowed
to stand. Even though we cannot reverse a decision merely because we would reach a
different outcome, we must reverse when we conclude that the state court decision
applies the correct legal rule to a given set of facts in a manner that is as patently
incorrect as to be ‘unreasonable.’” As to AEDPA’s prohibition against granting a
claim unless the state court adjudication of the same resulted in an “unreasonable
determination of the facts in light of the are presumed to be correct” and are to be
deferred to “‘unless they were ‘based on unreasonable determination of the facts in
light of the evidence presented in the state court proceeding.’” Gardner v. Johnson,
supra, at 557, quoting Chambers v. Johnson, 218 F.3d 360, 363 (5th Cir. 2000). To
successfully challenge the state court’s factual findings, a petitioner must rebut the
presumption of correctness with “clear and convincing evidence.” 28 U.S.C.
§2254(e)(l). But the presumption of correctness “does not apply when ‘some reason
to doubt the adequacy or the accuracy of the factfinding proceeding’ exists.” Barnett
v. Hargett, 174 F.3d 1128 (10th Cir. 1999). And a state court’s failure to consider
evidence which should be considered in addressing a constitutional claim can render
its decision unreasonable. Williams v. Taylor, 529 U.S. at 416; and Wiggins v. Smith,
539 U.S. at 528 (“This partial reliance on an erroneous factual finding further
9

highlights the unreasonableness of the state court’s decision.”) In addition, when fact
findings are influenced by an incomplete or incorrect view of the relevant law, no
deference is due them and de novo review is authorized. United States v. Mask, 330
F.3d 330, 337 (5th Cir. 2003) (citing United States v. Blount, 98 F.3d 1489, 1495 and
n.16 (5th Cir. 1996); and United States v. Capote- Capote, 946 F.2d 1100, 1102 (5th
Cir. 1991) (holding that district court’s findings and conclusions based on an
incorrect view of the law are due no deference). In the final analysis, as the Supreme
Court has stressed, “[e]ven in the context of federal habeas, deference does not imply
abandonment or abdication of judicial review. Deference does not, by definition,
preclude relief.'’'’ Miller-El v. Cockrell, 537 U.S. 322, 340 (2003) (emphasis added).
And “nothing in AEDPA requires federal courts to turn a blind eye to state
proceedings or to rubberstamp them.” Delgado v. Lens, 223 F.3d 976, 979 (9th
Cir. 2000)' (emphasis supplied). As will be demonstrated infra, Respondent spent
very little time in its Motion for Summary Judgment in addressing the evidence
adduced in the state habeas proceedings below, and when it does so, only the most
generic overview is provided. Specific arguments made by Petitioner with respect to
what the habeas record demonstrates, are not even addressed, much less analyzed, by
Respondent. Instead, a rather concise regurgitation of -the AEDPA standard of
review is advanced, no doubt, in an effort to obtain a favorable disposition of
counsel, which prejudiced him by his guilty plea being entered unknowingly,
unintelligently and therefore necessarily involuntarily without ever having had the
10

ability personally to accept or reject the State’s plea offer of forty-years in each case
to be served concurrently by counsel recklessly and ineffectively rejecting himself on
Petitioner’s behalf at some unknown time then informing Petitioner after-the fact,
immediately to a trial before a jury for guilt/innocence and punishment, which
prejudiced him. Petitioner’s claims by jettisoning substantive review of them on the
merits and without having to deal with the reality that the answer filed by the State
and adopted in toto by the trial court do not, in significant part, accurately reflect
what the habeas counsel, which prejudiced him by his guilty plea being entered
unknowingly, unintelligently and therefore necessarily involuntarily without ever
having had the ability personally to accept or reject the State’s plea offer of fortyyears in each case to be served concurrently by counsel recklessly and ineffectively
rejecting himself on Petitioner’s behalf at some unknown time then informing
Petitioner after-the fact, immediately prior to when Petitioner thought he was
supposed to be proceeding to a trial before a jury for guilt/innocence and punishment,
which prejudiced him.
In exercising due diligence Petitioner now presents the sub-grounds contained
in his Motion for Leave to Amend his petition filed before the district court entering
an order granting summary judgment and deny Petitioner’s request to amend his
petition under Rule 15, F.R.C.P. in the interests of justice as being moot in the same
Memorandum and Order issued by the district court on June 4, 2019 the day after my
motion had been filed by the clerk, below. Because he is pro se, Petitioner should not
11

be faulted for failing to more particularly plead or prove the allegations in his
application. See Estelle, 429 U.S. at 106 (“a pro se complaint, however inartfully
pleaded, must be held to less stringent standards than formal pleadings drafted by
lawyers and can only be dismissed for failure to state a claim if it appears beyond
doubt that the Petitioner can prove no set of facts in support of his claim which
would entitle him to relief) (citations omitted). The Supreme Court noted that, if a
Petitioner is deprived of the opportunity to proceeding, then it is likely that he will be
unable to do so in any future proceeding as a result of the statutory bar on subsequent
writs. See Tex. Code Crim. Proc. Art. 11.07, § 4. In order to afford Petitioner his one
full bite at the apple in this initial habeas proceeding, and in order to ensure that
Petitioner has been fully afforded his Sixth Amendment rights, Petitioner concludes
that the interests of justice require appointment of counsel and further proceedings
under these circumstances. Petitioner requests humbly, therefore, that this Court not
deny Petitioner relief at this stage, but would instead, remand this case to the habeas
court below for appointment of counsel and further proceedings as to his ineffectiveassistance claims. Due to the issue involving the transposition error by the only
intermediary Petitioner had access to, my father, who served as a sworn police
officer in Harris County for twelve-years is miracles in this endeavor and I love him
and my mother dearly and cherish their belief and support in me and without further
aside, I respectfully request that this Honorable Court reserve its decision in these
proceedings by looking to ground one of his State writ application in which he
12

clearly sets out and that the reason it was not considered by the federal district court
is because that court ordered a date his responsive pleading must be filed that was
impossible for him to have met; requiring on May 31, 2019 that he file his response
by June 03, 2019- however, the order in question was not file-stamped by the clerk of
the court until June 04, 2019 and was not received by Petitioner until June 7, 201.,
Logic dictates, one who presented those grounds in the State habeas court would also
do so in the federal petition, the fact he had filed consecutive amendments to his
federal petition is prima facia evidence of his diligent efforts to get it right even
though he is not trained in the law.
GROUND TWO (Restated): Whether jurists could have found reason(s)
debatable that the District Court erred by dismissing petitioner’s petition for a writ of
habeas corpus by a person in state custody Pursuant to 28 U.S.C. §§ 2241, 2254, with
prejudice without having considered his motion for leave to file his third amended
petition seeking habeas corpus relief under the circumstances discussed supra, and
Petitioner includes them here as he believes this Court will sustain ground one so the
Court may consider his ineffective assistance claims and if the Court rules against
him, what will it matter anyways? Petitioner requests that this Honorable Court
consider his complaint of his trial attorney failing to have rendered him effective
assistance during his trial in violation of the Sixth Amendment at trial.

13

Standard of Review- Ineffective Assistance of Counsel Claims
The "Strickland" [Strickland v. Washington, 466 U.S. 668 (1994)] standard
applies to claims for ineffectiveness of counsel ("IAC"). IAC claims require a
showing that counsel was deficient committed error(s) no reasonable attorney would
have made and that counsel's errors were "prejudicial". To establish prejudice on an
IAC claim, the petitioner must show that "there is a reasonable probability that, but
for counsel's deficient performance, the jury would have reached a more favorable
verdict". Although "reasonable probability" sounds like the petitioner must show
that the jury verdict "probably" would have been different, the actual burden is
somewhat lower: Strickland is satisfied where the effect of counsel's error is
"sufficient to undermine confidence in the outcome of the case". Such a standard
falls short of the "preponderance of the evidence" standard, which requires more
than a 50% certainty of error. The Strickland standard of prejudice is quite similar to
the showing a petitioner must make for "Brady" claims, where the prosecution has
suppressed evidence more favorable to the defendant. Again, a "reasonable
likelihood" does not require a showing that the result "probably" would have been
different. See Kyles v. Whitley, 514 U.S. 419, 434 (1995). Once a petitioner has
satisfied the Strickland standard (or the similar Kyles standard for Brady claims), the
Brecht standard has necessarily been satisfied as well, so no further showing of
harmless error is necessary. See Kyles, supra. Judicial scrutiny of counsel's
performance must be highly deferential. It is all too tempting for a defendant to
14

second-guess counsel's assistance after conviction or adverse sentence, and it is all
too easy for a court, examining counsel's defense after it has proved unsuccessful, to
conclude

that

any

act

or

omission

of

counsel

was

unreasonable.

SUBSTANTIVE REVIEW UNDER AEDPA
(1)

The

Clearly

Established

Federal

Law

Requirement

The initial or “threshold” inquiry under § 2254(d) is whether the petitioner
“seeks to apply a rule of law that was clearly established” when his conviction “
became final.” Kennaugh v. Miller, No. 01-2281, F.3d., slip op. at 1608 (2d Cir.
April 12, 2002) (citation and internal quotes omitted); see, e.g., Lindstadt v. Keane,
239 F.3d 191, 198 (2d Cir. 2001); Jenkins v. Artuz, Nos. 01- 2355, - 2328, F.3d,
2002WL 483547, at *6 (2d Cir. April 1, 2002). “If not,” the petition must be denied,
and the conviction sustained unless the state courts have unreasonably determined
the facts - a rarity indeed. Sellan v. Kuhlman, 261 F.3d 303, 309 (2d Cir. 2001). The
initial or “threshold” inquiry under § 2254(d) is whether the petitioner “seeks to
apply a rule of law that was clearly established” when his conviction “became final.”
Kennaugh v. Miller, No. 01-2281, F.3d , slip op. at 1608 (2d Cir. April 12, 2002)
(citation and internal quotes omitted); see, e.g., Lindstadt v. Keane, 239 F.3d 191,
198 (2d Cir. 2001); Jenkins v. Artuz, Nos. 01- 2355, -2328, F.3d , 2002 WL 483547,
at *6 (2d Cir. April 1, 2002). “If not,” the petition must be denied, and the conviction
sustained unless the state courts have unreasonably determined the facts - a rarity
indeed. Sellan v. Kuhlman, 261 F.3d 303, 309 (2d Cir. 2001). Several considerations
15

inform the “clearly established” analysis, which can sometimes prove “complex.” Id.
They include the following: First, on its face, § 2254(d)(1) “restricts the source of
clearly established law” to the “jurisprudence” of the U.S. Supreme Court. Williams,
529 U.S. at 412; accord Francis S., 221 F.3d at 108. Second, the phrase “clearly
established Federal law” refers solely to the Supreme Court’s holdings, as opposed
to its dicta, at the time of the relevant state court decision(s). See, e.g., Kennaugh,
slip op. at 1607; Jenkins, 2002 WL 483547, at *6; Brown v. Artuz, 283 F.3d 492, 501
(2dCir.2002). Third, despite the latter principles, the “determination” whether a given
Supreme Court precedent was clearly established “will ordinarily be made by the
lower federal courts”- not the Supreme Court itself- pursuant to their “independent
obligation to say what the law is.” Kennaugh, slip op. at 1608 (citation and internal
quotes omitted). Thus, one can expect a sizable body of district and circuit court
authority to develop as to when Supreme Court holdings became “clearly
established” for AEDPA purposes. Fourth, and finally, a rule of law may be clearly
established by either a general standard enunciated in the Supreme Court’s cases or
its specific application in a particular context. See id. at 1608-11. For example, in
Gilchrist v. O’Keefe, the petitioner challenged a state court’s refusal to assign new
counsel after he assaulted his court appointed lawyer. See 260 F.3d 87 (2d Cir. 2001),
cert, denied, No. 01-8995, S. Ct., 2002 WL 971360 (May 13, 2002). The Second
Circuit evaluated the claim under both the general requirement of Gideon v.
Wainwright, 372 U.S. 336 (1963), that waivers of counsel be knowing
16

and intelligent, and the specific prerequisites for self-representation outlined in
Faretta v. California, 422 U.S. 806 (1975). Though the*Supreme Court had never
faced the precise scenario before the Second Circuit, the appellate court concluded
that the right to counsel, through general precedents like Gideon, was fundamental
and clearly established. See also Lainfiesta v. Artuz,253 F.3d 151, 154 (2d Cir. 2001)
(“qualified right to counsel of choice,” while not itself clearly established, “emerges
out of a defendant’s broader right to control the presentation of his
defense”), cert, denied, 122 S. Ct. 1611 (2002); but see Morale v. Artuz,281 F.3d 55,
58-59 (2dCir.) (though clearly established where accused and witness are physically
separated, face-to-face confrontation right probably was not so established in the
“precise context” of a disguised witness testifying in defendant’s presence), {petition
for cert, filed, No. 01- 10169 (May 8, 2002)). In State Court the Petitioner requested
a live evidentiary hearing on several occasions and the appointment of counsel to
assist him since he had no formal legal training to no avail. Here, in petitioner’s
claims rely on a new rule of constitutional law or a factual predicate
previously undiscoverable through the exercise of due diligence; and (2) the
petitioner establishes by clear and convincing evidence that, but for constitutional
error, no reasonable factfinder would have found him guilty. 28 U.S.C. § 2254(e)(2).
In his case, Petitioner did present unresolved previously uncontroverted
factual issues to the State habeas court satisfying §2254(e)(2). However, Section
2254(e)(2) has “force [only] where § 2254(d)(1) does not bar federal habeas
17

relief Pinholster, 131 S. Ct. at 1401, it does not bar relief in the instant case.
Petitioner believe that he has vaulted this formidable hurdle encompassed and
further, as articulated in Pinholster an evidentiary hearing, is still appropriate to
as enough facts exist to make an informed decision on the merits. Schriro v.
Landrigan, 550 U.S.465, 474-75 (2007). Petitioner believes he has met this standard
for a hearing, and requests that this Court appoint counsel to assist him in further
litigation of his meritful contentions.
This Court should review Petitioner’s ineffective assistance of counsel claims
under the standard set forth in Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052, 80 L. Ed. 2d 674 (1984). Ineffective assistance of counsel is a mixed question
of law and fact which we review de novo. Id. at 698, 104 S.Ct. at 2070; Baker v.
Metcalfe, 633 F.2d 1198, 1201 (5th Cir.), cert, denied, 451 U.S. 974, 101 S.Ct. 2055,
68 L. Ed. 2d 354 (1981). To obtain reversal of a conviction or death sentence based
on ineffective assistance of counsel, a convicted defendant must show that (1) his
counsel's performance was deficient, and (2) the deficient performance prejudiced his
defense. Strickland, 466 U.S. at 687, 104 S. Ct. at 2064. To establish prejudice, a
defendant must show that there is a reasonable probability that, but for his attorney's
deficient performance, the factfinder would have had a reasonable doubt about his
guilt. Id. at 695, 104 S.Ct. at 2068-69. "A reasonable probability is a probability
sufficient to undermine confidence in the outcome." Id. at 694, 104 S.Ct. at 2068.
The right to effective assistance of counsel is intended to ensure that the defendant
18

receives a fair trial. Id. at 687, 104 S.Ct. at 2064. Therefore, to establish prejudice,
the defendant must show that counsel's errors were so severe as to deprive him of a
fair trial with a reliable result. Id. In determining whether there was prejudice, the
Court must look at the totality of the evidence before the jury. Because the defendant
must prove both deficiency and prejudice, a defendant's failure to prove either will be
fatal to his claim. The Supreme Court has stated that when analyzing prejudice in an
ineffective assistance of counsel case, a court should not focus solely on outcome
determination, without considering whether the result of the proceeding was
unreliable or fundamentally unfair. Lockhart v. Fretwell,506 U.S. 364-113 S.Ct. 838,
842-43, L. Ed. 2d 180 (1993). The touchstone of the prejudice inquiry is the fairness
of the trial and the reliability of the jury or judge's verdict considering any errors
made by counsel, not solely the outcome of the case. Strickland, 466 U.S. at 696,
Likewise, the sufficiency of the "untainted" evidence should not be the focus of the
prejudice inquiry. The materiality standard under Brady v. Maryland, is identical to
the prejudice standard under Strickland. In Kyles v. Whitley, the Supreme Court
emphasized that materiality under Brady has never been a sufficiency of the evidence
test. Instead, the defendant must show that "the favorable evidence could reasonably
in the verdict." Kyles, U.S. at 115 S.Ct. at 1566. The United States Supreme Court
has itself opined claims of ineffective assistance at trial often require investigative
work and an understanding of trial strategy. When the issue cannot be raised on
direct review, moreover, a prisoner asserting [such a] claim in an initial-review
19

collateral proceeding cannot rely on a court opinion or the prior work of an attorney
addressing that claim. Martinez v. Ryan, 132 S.Ct. 1309, 1317 (2012). In addition,
the Supreme Court noted that prisoners “unlearned in the law” may not “comply with
the State's procedural rules or may misapprehend the substantive details of federal
constitutional law.” Id. Moreover, considering all these considerations, the Supreme
Court concluded that, in order to present an ineffective assistance, claim in
accordance with the State's procedures, “a prisoner likely needs an effective
attorney.” Id. Without the assistance of effective appointed counsel in habeas
proceedings, the Supreme Court recognized that such a proceeding may not be
“sufficient to ensure that proper consideration [is] given to a substantial claim.” Id. at
1318. This, it explained, was of concern, given that the right at stake, the right to the
effective assistance of counsel, is a “bedrock principle in our justice system,” without
which the very fairness and accuracy of the underlying criminal proceeding cannot
be guaranteed. Id. at 1317.9 Here, in making the Court’s determination that applicant
may have a colorable ineffective assistance claim that requires the appointment of
habeas counsel in the interests of justice, The federal courts, including the United
States Supreme Court have held that pro se litigants pleadings should (1) liberally
construe an applicant's pleadings that complains of ineffective assistance of counsel,
and (2) examine Petitioner's complaints for substantive merit rather than for technical
procedural compliance. This liberal approach to construing the pleadings is firmly
recognized as appropriate considering applicant's status as a pro se litigant. See
20

Estelle v. Gamble, 9 n. 373 U.S. 83, 83 S.Ct. 1194, 10 L. Ed. 2d 215 (1963/ Brady
held that the prosecution's suppression of evidence favorable to an accused violates
due process where the evidence is material either to guilt or punishment. Id. at 87, 83
S.Ct. at 1196-97. In interpreting the materiality standard, the Supreme Court has
adopted the Strickland formulation of prejudice and cites both ineffective assistance
of counsel and Brady cases when defining materiality. See United States
v. Bagley, 473 U.S. 667, 682, 105 S Ct. 3375, 3383-84, 87 L. Ed. 2d 481 (1985)
(opinion of Blackmun, J.) (adopting the Strickland formula); Id. at 685, 105 S.Ct. at
3385 (White, J., concurring in part and concurring in judgment) (also
adopting Strickland standard); Kyles v. Whitney, 2d 490 (1995) (citing ineffective
assistance of counsel and Brady cases alternatively). The Brady materiality standard
asks”[w]hether

it

is

reasonably

probable

that

a

different

result

might

have been obtained had the evidence been disclosed.” Lindsey v. King, 169 F.2d
1034, 1043 (5th Cir. 1985). 429 U.S. 97, 106 (1976) (pro se complaint “is to be
liberally construed”); Haines v. Kerner,404 U.S. 519, 520- 21 (1972) (per curiam)
(apro se inmate's petition should be viewed liberally and is not held to the stringent
standards applied to formal pleadings drafted by attorneys); see also Hernandez v.
the benefit of liberal construction”); Brown v. Roe, 279 F.3d 742, 746 (9th Cir.2002)
( “Pro se habeas petitioners are to be afforded the benefit of any doubt.”) (citations
omitted). This Court is patently aware of Petitioner’s diligence in trying to comply
with all the procedural requirements of the Federal Rules of Civil Procedure in order
21

to correctly and effectively present meaningful pleadings for this Court’s
consideration although he has no formal legal training and has had to learn what he
does know by the meager, unconstitutional TDCJ unit law library and books his
family have paid to be sent to him. The United States Tenth Court of Appeals has
held in relevant part, mandated the liberal construction afforded to pro se pleadings
“means that if the court can reasonably read the pleadings to state a valid claim on
which the [petitioner] could prevail, it should do so despite the Petitioner’s failure to
cite proper legal authority, his confusion of various legal theories, his poor syntax
and sentence construction, or his unfamiliarity with pleading requirements.” Barnett
v. Hargett, 174 F.3d 1128, 1133 (10th Cir.1999) (quoting Hall v. Bellmon, 935 F.2d
1106, 1110 (10th Cir.1991)). It is well established that this practice of liberally
construing pro se pleadings are a proper judicial function that does not transform a
judge into an advocate for a habeas applicant. See id. (explaining that, although a
court “should not assume the role of [an] advocate for the pro se litigant and may not
rewrite a petition to include claims that were never presented,” courts act properly
when they “look[s]carefully at the facts and the pleadings in an effort.to ascertain
what occurred in prior state proceedings and the true nature of petitioner's claims”).
Considering these principles, the Court’s review for whether this pro se Petitioner
may have a colorable claim that would justify the appointment of counsel in the
interests of justice does not call upon the habeas court to make legal arguments for
Petitioner, nor does it require any court to become an advocate for him. Rather, by
22

liberally reading the pro se pleadings and examining the face of the record to
determine whether appointed counsel is required under the circumstances in order to
ensure that an Petitioner's claims are given meaningful consideration, Petitioner
sincerely and humbly requests this Court adhere to its judicial duties to afford pro se
litigants wide of Civil Procedure that entitle Petitioner to appointed counsel when the
interests of justice require it. Applying the foregoing principles here, Petitioner only
requests that hold that applicant's pleadings are adequate to give rise to a colorable
ineffective assistance proceeding in pro se, Petitioner should not be faulted for
failing to more particularly plead or prove the allegations in his petition. See
Estelle,429 U.S. at 106 (“a pro se complaint, however inartfully pleaded, must be
held to less stringent standards than formal pleadings drafted by lawyers and can
only be dismissed for failure to state a claim if it appears beyond doubt that the
petitioner can prove no set of facts in support of his claim which would entitle him to
relief) (citations omitted). I respectfully note that, if Petitioner is deprived of the
opportunity to factually and legally develop his ineffective assistance claims in the
instant proceeding, then it is likely that he will be unable to do so in any future
proceeding as a result of the Statutory bar on subsequent writs. See Tex. Code Crim.
Proc. art. 11.07, § 4. In order to afford Petitioner his one full bite at the apple in this
initial habeas proceeding, and in order to ensure that Petitioner has been fully
afforded his Sixth Amendment rights, Petitioner pray the Court will conclude that the
interests of justice require appointed counsel and further proceedings under these
23

circumstances. Therefore, Petitioner avers that this court in Applying the foregoing
principles here, would hold that Petitioner's pleadings are adequate to give rise to a
colorable ineffective assistance claim to warrant the appointment of counsel in the
interests of justice. Failure to thoroughly investigate all the facts and applicable law
relevant to this case, (a) Specifically, Petitioner claims that trial counsel was
ineffective by not being prepared to prosecute the Motion to Suppress at the hearing
held pretrial by the state court, which prejudiced the Petitioner. Counsel told
Petitioner he planned to file the motion to suppress because he believed the State had
erred in the process of serving and executing the search warrant and he was going to
challenge the process during a pretrial hearing on his motion to suppress. Petitioner
submits that trial counsel was deficient during the suppression hearing by failing to
make the court aware that the officer executing the search warrant was not verified
by same. The Texas Code of Criminal Procedure, Art. 38.01, search governs how a
search warrant may be obtained and executed. A "search warrant" is a written order,
issued by a magistrate and directed to a peace officer, commanding him to search for
any property or thing and to seize the same and bring it before such magistrate or
commanding him to search for a specific item or person. No search warrant shall
issue for any purpose in this state unless sufficient facts are first presented to satisfy
the issuing magistrate that probable cause does in fact exist for its establishing
probable cause shall be filed in every instance in which a search warrant is requested.
The affidavit is public information if executed, and the magistrate's clerk shall
24

make a copy of the affidavit available for public inspection in the clerk's office
during normal business hours. The record before the Court contains the search
warrant in question and corroborates Petitioner’s assertion on its face that it was
never verified by the officer who executed and therefore, anything gleaned from it
should have been excluded as being tainted and fruits of the poisonous tree, (b)
Counsel was deficient never signed or initialed any documents advising him of his
constitutional rights. Recently in Salinas v. Texas, 12-246, recently decided by the
Supreme Court, who determined, inter alia, The Fifth Amendment of the Bill of
Rights states that no U.S. citizen "shall be compelled in any criminal case to be a
witness against himself." It has since been interpreted to mean that a defendant's act
of remaining silent — of refusing to testify — cannot be used as evidence against
him or her in court. However, in Salinas the Supreme Court determined that if a
criminal defendant did not invoke his Fifth Amendment privilege it would be forfeit
under the “use it or lose it “doctrine in cases involving Miranda, Berghuis v.
Thompkins, 560 U.S. 370 (2010).
In the instant case, at the time Petitioner was questioned he had in fact asserted
his right to remain silent without his attorney present, which the police attempted to
obviate without ever having him sign his acknowledgement police had in fact made
him. aware of his Fifth Amendment rights, also failing to have him initial each one
that were imparted to him by detectives that traditionally demonstrates at that point if
he talked with police and answered their questions he would do so at his own peril.
25

"Constitutional protections should not be just for those who have legal training and
know what they need to say to the police to invoke their rights,” and as his case
predates Salinas v. Texas, supra, the consequence of the Court's counter-intuitive
ruling, the majority of Americans are no longer under the full protection of the Fifth
Amendment. Under the jurisprudence existing at the time of this case. The Supreme
Court ruling in Miranda created precedent law requiring detainees to be advised of
their constitutional rights, but it did not specify the wording that must be used to do
so. The Court’s ruling stated:

“• •

The person in custody must, prior to interrogation,

be clearly informed that he/she has the right to remain silent, and that anything the
informed that he/she has the right to consult with an attorney and to have that
attorney present during questioning, and that, if he/she is indigent, an attorney will be
provided at no cost to represent him/her.” The term “custody” has been defined as
being put under formal arrest or being deprived of freedom in a manner commonly
associated with being under arrest. The term “interrogation” has been defined as the
explicit questioning of a person in a manner that is reasonably likely to provoke an
incriminating statement. Because of the widespread ramifications of the Miranda
ruling, police and other law enforcement agencies across the country instituted a
policy of advising every suspect taken into custody, or questioned as a criminal
suspect, of their rights. This mandatory notice is commonly referred to as the
Miranda rights.' Petitioner submits that the time he was arrested and taken into
custody that police failed to read him his Miranda rights and that is why there is no
26

documentation in the record to contradict his contention; Failing to read a suspect his
Miranda rights can result in any statements or confession made to be considered
inadmissible in court. Therefore, Petitioner requests that this Court find this issue
deserves encouragement to proceed further, (c) Counsel was ineffective for failing to
notify the trial court of her desire to reserved opening statement (7RR75-76),10
forfeiting same and prejudicing the defense, (d) Counsel was ineffective for failing to
properly convey any and all plea bargain offers made by the State prior to his trial
beginning. Petitioner bases this claim on fact his trial attorney had mentioned in
passing Petitioner should have taken the plea offer during the guilt/innocence portion
of his trial. However, Petitioner was never advised of a plea offer made by the State.
As a threshold matter, the Sixth. For purposes of this proceeding Petitioner will refer
to the court “Reporter’s Record” as “RR” followed by the volume number, and then
the page cited and the “Clerk’s Record” as “CR” followed by the volume number and
finally the page number cited.
CONCLUSION
This Court should grant certiorari to review the Fifth Circuit’s judgment
refusing to grant a COA on the issues raised in Petitioner’s motion, in opposition to
summary judgment and summarily reverse the decision below, hold this case as it
considers the scope of other cases supra, or grant such other relief as justice requires.
SIGNED on this the

IJ^L

day of March 2021.

27

Respectfully submitted,

L 1/
Olen Ware, II, Petitioner, Pro se
TDCJ - CID#0186784
Wynne Unit, TDCJ-CID
810 FM 2821
Huntsville, Texas 77349

28

